".                       ""'




     Department Of Health And Human Services
              OFFICE OF
         INSPECTOR GENERAL




         SERVICES INTEGRATION:
     A TWENTY- YEAR RETROSPECTIVE




                               E.r.
                                        of Richard P. Kusserow
                                      CI.r



                                             INSPECTOR GENERAL
             i J



                   Jy~
                               It..          .. JANUARY 1991
,;"   . .




                                                       OFFICE OF INSPECTOR GENERAL

             The mission         of   the Office       of   Inspector General (DIG), as mandated by Public Law 95-452

             as amended, is to protect the integrity                     of  the Department         of Health and Human Services

            (HHS) programs as well as the health and welfare                                 of  beneficiaries served by those

            programs. This statutory mission is carried out through a nationwide network                                   of audits,

            investigations, and inspections conducted by three DIG operating components: the Office

            of  Audit Services, the Office                  of Investigations, and the Office             of Evaluation and

            Inspections. The DIG also informs the Secretary                                ofHHS of     program and management

            problems, and recommends courses to correct them.


                                                            OFFICE OF AUDIT SERVICES

            The DIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by

            conducting audits with its own audit resources or by overseeing audit work done by others.

            Audits examine the performance          of HHS programs and/or its grantees and contractors in

            carrying out their respective responsibilities, and are intended to provide independent

            assessments         of   HHS programs and operations in order to reduce waste, abuse and

            mismanagement and to promote economy and efficiency throughout the Department.


                                                            OFFICE OF INVESTIGATIONS

            The DIG' s Office            of     Investigations (01) conducts criminal, civil , and administrative

            investigations        of   allegations       of   wrongdoing in HHS programs or to HHS beneficiaries and

            of unjust enrichment by providers. The investigative effons                 of 01 lead to criminal

            convictions, administrative sanctions, or civil money penalties. The 01 also oversees State

            Medicaid fraud control units which investigate and prosecute fraud and patient abuse in the

            Medicaid program.


                                              OFFICE OF EVALUATION AND INSPECTIONS

            The OIG' s Office            of   Evaluation and Inspections (OEI) conducts shon-term management

            and program evaluations (called inspections) that focus on issues             of concern to the

            Department, the Congress, and the public. The findings and recommendations contained in

            the inspections reports generate rapid, accurate, and up-to- date information on the

            effici~ncy, vulnerability, and effectiveness               of dep~ental programs. This repon was

            prepared in the Boston Regional office under the direction              of Regional Inspector General

            Mark R. Yessian, Ph. D., and Deputy Regional Inspector General Martha B. K vaal. Project

            staff include:


            Dana L. Miller
            Barry C. McCoy
            Eleanor M. Ellis
            Nina M. Ricks

            Ruth Folchman,             Headquarters

       ... ",,        """




Department Of Health And Human Services
         OFFICE OF
    INSPECTOR GENERAL




    SERVICES INTEGRATION:
A TWENTY- YEAR RETROSPECTIVE




                              Richard P. Kusserow
                              INSPECTOR GENERAL
                    ~ OEI-
                 Jy.l~""'Ja
                                     OI- 91- 00580
     -"' ".-.
, "---€                                                   ....




                                                                 ___0.'__"

                               EXECUTIVE SUMMARY

           PURPOSE

           In the 1970' s and 1980' s, the Department of Health, Education , and Welfare (HEW) and its
          successor, the Department of Health and Human Services (HHS), have taken many initiatives to
          promote a more integrated management and delivery of human services. In this study, we
          examine those initiatives to identify major lessons learned that can help guide policymakers in
          the 1990' s. In so doing, we pay particular attention to comprehensive initiatives which have
          spanned different categorical programs.


          BACKGROUND

          Services integration  (SI) is a response to the highly fragmented nature of the human services
          environment. It involves effons at service delivery and administrative levels to establish
          linkages that contribute to the effectiveness, efficiency, and economy of human services
          programs. Over the past two decades, there has emerged a considerable body of .literature that
          describes and assesses these SI effons. In this repon, we base our findings and concluding
          observations on a review of much of that literature and many internal HEW/HHS documents,
          companion report, " Services Integration for Families and Children in Crisis
          (OEI- 09- 90- 00890), identifies and analyzes 13 SI effons initiated at the community level to
          assist dysfunctional or multiproblem children and families.


          FINDINGS

          SIefforts have been instrumental in making human services more accessible to clients and
          more responsive to their needs.

          Over the long term, however,       5,1
                                                   efforts appear to have had little institutional impact on a
          highly fragmented human servil!es system.

          SI   efforts that cut across program areas confront fundamental barriers. They include:

                   1. Size and complexity of the human services system.

                   2. Professionalization , specialization , and bureaucratization.

                   3. Limited influence of integrators,

                   4. Weak constituency for services integration.

                   5. Funding limitations.
                     -. "'-   -"-- "'"                             . .... _-- -..   --"-..




        6, Insufficient knowledge.


PRINCIPLES FOR FUTURE SI EFFORTS

Given the enormity of the barriers they face, Sf efforts that callfor major institutional reform
should be initiated selectively, if at all.

An Sf strategy likely to generate more near- term success is to focus on well- defined target
groups and to pursue reform primarily within categorical program areas.

Even a target-group, categorical-program approach, however, is likely to require some degree
of central authority and flexible funding to generate and sustain more integrated service
delivery.

A funding source granting an organization some authority and flexible funding for promoting
Sf should hold it accountable for defining and measuring expected outcomes.

The cultivation and maintenance of networks of individuals engaged in Sf efforts is vital to
the success of these efforts.
                                                         ............
                                                             ........  ..........................
                                                               ..........
                                                    ....................   ..................
                                                                      ........
                                                                          ....  ....
                                                                             - -..............
                                                                                  "'---"-' -................ ......................................"....,
                                                                                                     ...... """.",   ...... ........ .....
                                                                                                            ........................ .............. '........., ...---...-.....




                               TABLE OF CONTENTS
  EXECUTIVE SUMMARY

  CH APTER I: INTRODUCTION 


             The Meaning of Services Integration .............................. .............. ................................... 


            The Historical Background ..............................................                                                    :..........".... ". 2


  CHAPTER II: OVERVIEW................ ...................................... .................... ........................ .., 5


            Findings.................... ...... ............                                  """""""""""""'.'."""'.""..."".."""" 5



            Principles for Future 51 Efforts                                      :..................... ........ ........ .............. ...... ........... 8


  CHAPTER Ill: DEFINITIONS OF SERVICES INTEGRATION ...................................., 10


  CHAPTER IV: CHRONOLOGY OF MAJOR FEDERAL SERVICES
  INTEG RATION EFFORTS ......

  CHAPTER V: FINDINGS FROM SELECTED NATIONAL STUDIES ON

  SERVICES INTEGRATION ................................... ............... ............ ...... ...... ............ ...... ......' 15


, APPENDIX A


            Endnotes....,........................................... ..............................................................,......... A-
                                                                             --, "'--"-'€




           CHAPTER                             INTRODUCTION
During the past two decades, the Department of Health , Education , and Welfare (HEW) and its
successor, the Department of Health and Human Services (HHS), have initiated many efforts to
promote services integration (SI). In this repon we review those efforts with the aim of
determining what has been learned from them. Our presentation is a succinct one directed to
Federal policymakers who are considering Federal SI initiatives that might be taken in the early
 1990'

We start out in this introductory chapter by providing some conceptual and historical context.
We examine. the meaning of SI and the historical backdrop of 51 efforts in HEW/HHS. Then , in
Chapter II , we offer an overview of our findings and of what we conclude are some basic
principles that should guide SI effons in the 1990'

The subsequent chapters provide more detailed infonnation that help explain and support the
findings and principles set forth in the overview chapter. In chapter III , we cite various
definitions of 51. In chapter N, we present a chronology of major 51 efforts in the 1970' s and
1980' s. Finally, in chapter V, we list the major findings from selected national studies on 51.

Throughout the repon, we rely primarily on a review of the considerable literature that exists on
the topic. We also draw on the files and experiences of the primary author, who has participated
in many Federal SI activities over the past two decades.

A companion report, " Services Integration for Families and Children in Crisis " (OEI- 09- 00890),
focuses  on SI initiatives undertaken at the community level. It describes and analyzes 13 such
initiatives that address the. needs of dysfunctional or multiproblem children and families.

THE MEANING OF SERVICES INTEGRATION

Many years ago, the story goes , an HEW employee was assigned to a task force on services
integration and, at the initial meeting, turned to the person next to him and asked why they
would be examining racial integration in the armed forces. Whether true or not the story
illustrates an important point: th~t 51 has had different meanings to different people.

Sf At Service Delivery Levels

In reviewing these meanings, we and others 2 have found it helpful to distinguish between 51
efforts conducted at service delivery levels and those at administrative levels. Most definitions
(see chapter Ill) focus on the delivery levels, where individuals and families come into contact
with the service delivery system. They stress the linking of service providers or programs in
order to improve the system s responsiveness to client needs. These linkages may range     from
the integration of core services such as outreach or intake , through the development of case
management services, to the sharing and/or collocation ' of personnel.
In this context, SI is viewed as a response to the basic failings of the human services delivery
system. In 1974 , in a special report on SI issued by the American Society for Public
Administration , these failings were described as follows:

         The system is too fragmented , leaving clients with multiple needs unnecessarily
         vulnerable.

         The goals of individual programs are too limited. Shaped by the categorical mandates of
         authorizing legislation , they inhibit broadly based, multifaceted approaches to problem
         solving.

         The services are often provided ~' in an inefficient , duplicative , and bureaucratically
         confusing manner to those who have the need.

         The services tend to be lacking in accountability and to be self- perpetuating,   regardless
         of their effectiveness.

         The service system is not sufficiently attentive to the long-term needs of clients.

SI   At Administrative Levels

At administrative levels, the focus is on linking providers and programs to improve planning,
budgeting, and management operations. Here, the empbasis is on achieving greater
administrative coherence, with the intent not only of facilitating service level effectiveness but
also of promoting efficiency and economy.

In this sphere, SI is typically viewed as a way of using business principles to enhance
accountability and productivity. Specific initiatives might range from the consolidation of
various categorical programs through the imposition of more general management controls over
such programs, to the conduct of joint planning and programming efforts.

At both service delivery and administrative levels, SI is a response to increased specialization
and complexity. It is an effort to view human services from a higher level of generality and in so
doing to spot opponunities for reform that are not readily discernible from narrower vantage
points. In this sense , SI is comparable , to a business firm changing its focus from shoes to
footwear or from business equipment to information processing. By raising the level of
generality at which it defines its products, such a firm seeks new profit-making opportunities in a
changing marketplace.

THE HISTORICAL BACKGROUND

In the 1960' s, as the Federal Government was fighting a "War on Poverty " and increasing its
investment in human services programs, it began to devote substantial attention to the
coordination of services. In the Juvenile Delinquency, Neighborhood Service Center
Community Action , Model Cities, Community Mental Health Centers, Head Start, Older
Americans Act, and other programs, Congress stressed the importance of coordinated planning
and service delivery, In this regard, it was pursuing objectives sought many decades earlier by
the organized charity and settlement house movements.

1971- 1976

By the early 1970' s, HEW, which had not been a major participant in the " War on Poverty
effort , began to give concened top level attention to service coordination. 6 There were two
precipitating factors. One was the intent, supported by the President to separate the
administration of income maintenance and social services programs. '1 With such separation
social services and how they were delivered would gain increased visibility. The other factor
was Secretary Elliot Richardson s interest in initiating reforms that would foster the integration
of services across categorical program areas. In speeches, Secretary Richardson often lamented
that these programs were suffering from a " hardening of the categories.

In defining what he came to call " services integration " Richardson stressed the importance of
the service delivery level , both as a point to make a difference in the lives of needy individuals
and as the wellspring for associated reforms at higher administrative levels, During his tenure
the Secretary initiated an ambitious SI agenda involving research and demonstration projects,
prop,osed legislation , technical assistance effons, and internal depanmental reforms (see chapter
IV). 8 ,

When Caspar Weinberger became Secretary in early 1973, he and Under Secretary Frank
Carlucci continued to give considerable attention to SI. Increasingly, however, they focused
their effons on the integrative potential of State and local general purpose governments 9 and on
the importance of strengthening the human services planning and management .capacity of these
governments.

In this context, both the Richardson and the Weinberger teams saw particular value in umbrella
State human services agencies as spearheads for SI and, through research grants and technical
assistance effons , supported the development of such agencies,. These umbrella agencies,
defined by the Council of State Government, brought together under central management (of
varying degrees of authority) the agency that administers public assistance/social services and at
least three other major human services programs. lO By far the most noted of the umbrella
agencies was in Florida, where in 1975 the State legislature gave generalist managers in the State
Department of Health and Rehabilitative Services far more control over categorical programs
than in a~y other State.

1977- 1990

By 1977, when Joseph Califano became Secretary of HEW, the Department s SI effons were
losing momentum. The proposed Allied Service Act, the keystone of prior SI agendas, had
failed to pass Congress, despite repeated attempts. Further, various HEW-supported research
projects and internal reform efforts were having little institutional impact.
                                                '"                                       " "




In any case, the new Secretary s priorities were elsewhere, Programmatically, he concentrated
on attempts to achieve welfare reform and national health insurance, Organizationally, he
triggered internal reorganizations that stressed centralization and functional management.

In the late 1970' s and throughout the 1980' s, the SI agenda devolved largely to State and local
governments. With Congress '      enactment of the social services block grant in 1975 and seven
additional block grants in 1981 , States faced fewer categorical program constraints and thus had
greater flexibility in using Federal funds to promote SI. The Federal funding cutbacks and the
economic recession of the early 1980' s, however, clearly limited this opportunity. For example,
a fall 1985 anicle on New Jersey s experience with block grants noted that the funding shortfalls
had limited the State and county governments ability to be flexible and innovative. The
shortfalls in funding, " the anicle went on have negated any positive effect the reductions of .
regulations and controls may have had.

Further, in the 1980' s, interest in establishing or strengthening State umbrella agencies waned
considerably. The gains associated with such efforts appeared to be too distant or intangible to
warrant the struggle to overcome the opposition they generated. I4 Governors, concerned about
the rising costs of Medicaid and other human services programs, increasingly exerted their
influence over these programs through their State budget offices or their own immediate offices.
In this regard their focus typically was not on service delivery reform but on expenditure control.

Yet, without great visibility, SI efforts continued to take place in the 1980' s. IS Some of the more
notable ones were sponsored by private foundations; others by governmental sources. In general
these effons seem to have been less ambitious than those of the 1971- 76 era. Increasingly, it
appears, they involved integration within categorical programs and for target groups, such as the
aged, mentally ill , runaway youth , and developmentally disabled.

At the HHS level , Secretary Louis Sullivan has recently taken some actions that are consistent
with this target group approach and that suggest that SI is again a secretarial priority. In the fall
of 1990, the Secretary announced nine program directions to be implemented in fiscal years
1991 and 1992. One calls for improving " the integration , coordination and continuity of the
various HHS funded services potentially available to families currently living in poveny. " Two
others call for integrative efforts directed to youth and children living in poverty,
                CHAPTER II: OVERVIEW

FINDINGS

In chapter V we provide a detailed review of the findings of many national SI studies conducted
during the past two decades. Below, we offer at a more general level the major findings that
have emerged from these and other studies. Throughout, the major focus is on comprehensive SI
efforts that seek to establish aqrninistrative and service delivery linkages across program areas.

SI Efforts Have Been Instrumental in Making Human Services More Accessible to Clients
and More Responsive to Their Needs.

Over the past 20 years, SI projects have made an important difference in the lives of many
individuals and families having multiple service needs. In Brockton , Massachusetts; Louisville,
Kentucky; Mon Valley, Pennsylvania; Honolulu, Ha waii; Hartford, Connecticut; and many other
sites of demonstration projects, clients have benefited from a broadly based approach to service
delivery.
          17 For instance, Hartford' s Community Life Association project, one of the more
ambitious SI research efforts funded by HEW in the 1970' s, delivered a wide array of services to
more than 2, 000 individuals and, suggests the final evaluation report, " in ways which would not
have been possible if equivalent funds were applied through previously existing channels.

At both administrative and service delivery levels, the development of new linkages between
programs and service providers has often made it easier for clients to gain access to services and
for caregivers to be more helpful in providing those services. Through information and referral
systems, multiagency client information systems, joint programming efforts, and the like, SI
projects to varying degrees have been able to cut across the fragmented human services system
and respond in a coordinated manner to the service needs of clients.

Over the Long Term, However, SI Efforts Appear to Have Had Little Institutional Impact on a
Highly Fragmented Human Services System.

The failings of the human services system identified in the 1974 report of the American Society
                                                                   19 Notwithstanding the new
for Public Administration appear to be equally applicable today.
block grant programs and the continuing contributions of Head Start and many other programs
that have imponant coordinative components, that system remains highly fragmented,
characterized by multiple programs with limited goals offering services that are often
                                                                                   20 Not
duplicative, lacking in accountability, and inattentive to long term client needs.
surprisingly, then , a 1987 General Accounting Office study found that substantial obstacles
continued to inhibit SI initiatives, Among the most frequently noted were the multiplicity of
regulations associated with human services programs and the different eligibility requirements of
different programs.

The history of the many SI demonstration projects funded over the years is that once the
demonstration funding has run out, the integrative elements have receded or disappeared
altogether, 22 Typically, they have exerted little institutional impact on the larger human services
                                                                           ' ,,€
 system. The imperatives of specialization have proven to be more commanding and lasting than
 those of integration,

SI Efforts That Cut Across Program Areas Confront Fundamental Barriers,

In reviewing the SI literature produced over the past 20 years, we find that the clearest lessons
learned are about the factors that inhibit services integration. These lessons can offer extremely
valuable cautions to the architects of future 51 efforts. Below we identify and briefly address six
basic barriers that have constrained SI efforts and that help explain the highly pluralistic state of
the human services field.

 1,   Size and Complexity of the Human Services System

In 1972 , an internal HEW task force identified size and complexity as one of the major obstacles
to services integration, It elaborated as follows:

          The numbers of doors to open; the professional keys to open them; the mazes of€
          paperwork and human interaction; the length of time between conception of an idea and€
          fulfillment; the budgetary uncertainties. .. All of these, in the aggregate, create a specter€
          that is a challenge to the most sophisticated and dedicated local advocate of€
          integration. ,,€

In subsequent years, the experiences of many SI projects reinforced the validity of the task
force s observation, In 1977, in a Project SHARE mQnograph reviewing these experiences, the
author concluded that " the reality of interprogram linkages is so complex that it is difficult for
anyone to anticipate the full ran                 modes of coordination and the number of possible
                                 ,r;e of possible
impediments to coordination.

2.    Professionalization, Specialization, and Bureaucratization

These three forces are a basic part of the human services system and, for that matter, of modern
Western society. They are an interrelated set of forces that reflect the rapid advance of
knowledge and a quest to apply that knowledge in a proficient, reliable manner to meet human
needs. At the same time , these f9rces contribute to a deep commitment to established doctrines
                                                                                            25 and, as
and approaches. Bureaucracy, by its very nature, reflects a bias toward the status quo,
   J. Laski pointed out 60 years ago, the " intensi ~ of vision " associated with professionalism and
                                                    " 6 In the
specialization "destroys the sense of proportion,              domain of SI , project after project has
found that the highly professionalized, specialized, and bureaucratic nature of the human
services environment generates a mind-set among established interests that is not receptive to
integrative reforms. Here , again , an early study reflected an insight that subsequent experiences
have strongly reinforced, In a pioneering 1971 HEW report on SI , the authors expressed the
view that " attitudinal barriers to services integration were much more significant than were
resource constraInts or even envIronmenta comp exIty In uman serVIces programs,
 3,   Limited Influence of Integrators

 In the early 1970' s, those developing SI strategies at the Federal level viewed the collaboration
 of functional line agencies as crucial , but in itself insufficient. For SI efforts to take hold, they
 felt it was necessary for some integrator, having a broader perspective, to exert leadership, Thus,
 they emphasized the significant contributions that must be made by representatives of general
 purpose governments and by those directing SI projects.

The cumulative history of these projects, however, indicates that over time the integrators have
limited influence. 29 In part, this is because of all the other barriers noted, but it is also because'
of the instability of the integrator roles. Leaders of SI demonstration efforts have found the
career track in such roles to be extremely limited, panicularly in contrast to that of their
colleagues in specialized agencies. Similarly, human services generalists associated with general
purpose governments have tended to have shon tenures, coming and going in response to the
vicissitudes of electoral politics.

4,    Weak Constituency for   Services Integration


Another barrier, one that further explains the limited influence of generalist integrators, is the
weak constituency that exists for SI. The strongest constituencies within the human services
field are those that rally around specific target groups, such as the disabled, the mentally
retarded , and the aged , and around particular programs serving those groups. In contrast, those
supporting SI efforts tend to be diffused and with rare exceptions less forceful in their advocacy,

Thus, SI has rarely been a                           offic~als, government executives, service
                          Rriority
providers, or even clients,
                                    among
                             Whatever   its elected
                                            substantive merits, SI has lacked the political
constituency to sustain major reform , especially in heavily urban areas with a multitude of
well-established service providers. 32 This is a lesson that SI supponers have often learned the
hard way. When their efforts have generated the conflict that is an inevitable part of the change
process, they have usually found that the balance of power is not in their favor.

5.    Funding Limitations

  , its advocates have typically argued , is not a quick- fix for the failings of the human services
system , but rather an investment toward enduring reform , with significant long- term impact.
This investment is one that has usually called for an increased expenditure of funds, over and
above those being spent on current service operations. 34 These additional funds have been vital
to the establishment of SI mechanisms such as client information systems, collocated services,
and case management arrangements.

Yet , during times of taxpayer revolts, fiscal stress, expanded client need for direct services, and
heightened competition for public dollars, such investment capital has been available only on a
very limited and irregular basis. This is especially true because the track record of SI efforts is
that they do not appear to contribute to reductions in service costs, at least in the near term,
Thus, funding limitations have served as a major constraint to both the initiation and the
continuation of SI reforms,
6.   Insufficient Knowledge

Is SI cost-effective? Are the additional costs imposed by linkages warranted on the basis of
outcomes? Are certain types of linkages more important than others? Why? Under what
circumstances? Even after two decades of experimentation, few reasonably conclusive answers
can be offered to these and other such basic questions. That reality continues to exert one of the
most significant barriers to SI.

With varying degrees of rigor and completeness, such questions have been addressed by some
individual project evaluations. At a national level , however, there has been insufficient data
gathering, synthesis, or analysis to offer policymakers much guidance. In this regard, three of
the major SI research and development efforts funded by HEW /HHS over the past two
decades-the Services Integration Targets of Opportunity, the Comprehensive Human Services
Planning and Delivery System Projects, and the Services Integration Pilot Pro~ects-have fallen
far short of their own stated intentions to contribute. to the SI knowledge base, 6

PRIN CIPLES FOR FUTURE SI EFFO RTS

Those planning and conducting SI efforts in the 1990' s face a challenging situation. As they
look back at the effons of the past two decades, they can find much more information on the
possible pitfalls than on the particulars of how they should approach SI or on the results they can
expect. Yet, although providing no easy answers, these prior experiences do offer a base of




levels,
wisdom that , at least at a general level , can be instructive. We offer some principles intended to
draw on this wisdom and to provide some guidance to future SI efforts at Federal , State, or local


Given the Enormity of the Barriers They Face, SI Efforts That Seek Major Institutional
Reform ShQuld Be Initiated Selectively, If At All.

The HEW SI agenda of the 1970' s sought far-reaching institutional reforms in the human
services system. Many of the initiatives developed were comprehensive ones, spanning
categorical program areas, seeking new lines of authority, and calling for a substantial
expenditure of funds. Although , it is possible that long- term gains may justify such expansive
efforts, the prospects for generating and sustaining the necessary political , programmatic , and
financial support are not good. The chances of success appear to be much greater if
policymakers pursue more modest objectives, stressing incremental , near-term gains.

An SI Strategy Likely To Generate More Near-term Success Is To Focus On Well-Defined
Target Groups And To Pursue Reform Primarily Within Categorical Program Areas,

Such an approach is grounded in the current realities of the human services system, Although it
may not change some of the basic failings of that system , it would receive more support from
established constituencies and could, if short-term results were favorable, generate momentum
toward more far-reaching reform, 38 Further, by virtue of being less complex , such a strategy
would facilitate priority-setting and performance assessment. In this regard, it responds to Peter
different constituencies with different values and different demands.
                                                                         39
Drucker s warning that " government will mal perform if an activity is under pressure to     satisfy,




Even A Target- Group, Categorical-Program Approach, However, Is Likely To Require Some
Degree Of Central Authority And Flexible Funding To Generate And Sustain More Integrated
Service Delivery,


A danger associated with a more modest approach to SI is that it will not sufficiently change
established patterns of administration and service delivery. Coequal agencies, we have found,
tend to particip ate in integrative efforts warily, if at all. If an integrative effort of some
consequence is to occur and endure-for instance, one directed to clients who suffer from severe
mental illness as well as from alcohol and drug abuse-it would appear to be necessary for an
integrator to provide some external stimulus and for the participating agencies to agree to some
                      40 So, too, there should be some degree of flexible funding to support the
loss of sovereignty.
effort, at least at the outset. In the words of one 20- year veteran of SI initiatives, " , . . nothing
coordinates like cash. . . if you don t have some fle~ible funding, , . , the task of coordination is
going to get extraordinarily difficult. ,,€

A Funding Source Granting An Organization Some Authority And Flexible Funding For€
Promoting SI Should Hold It Accountable For Defining And Measuring Expected Outcomes.

In retrospect, SI projects of the 1970' s and to a lesser extent the 1980' s probably gave too much
attention to comprehensive planning and not enough to measuring results. In the 1990' s, in line
                                                                                     42 SI projects
with performance- based approaches being pursued in education and other fields,
should develop performance indicators and use them on an ongoing basis to assess the
effectiveness of the services being offered to clients and the efficiency and economy with which
they are being provided. Such a performance assessment is doable 43 and has many potential
benefits. Among them is the gradual accumulation of a data base that can be used to (1) clarify
what difference SI makes, (2) help rais~ important questions about the adequacy of established
administrative and service delivery approaches, and (3) contribute to a broader understanding of
and support for promising integrative reforms.

The Cultivation and Maintena.nce of Networks of Individuals Engaged in SI Efforts is Vital to€
the Success of These Efforts.

In 1975, a Rand Corporation report warned, " In the absence of rather decisive DHEW initiatives,
                                                                                  44 Fifteen years
services integration will continue to be a marginal and isolated phenomenon.
later, that warning still deserves serious consideration, SI efforts occur at the periphery of the
human services system, not at its core. They are a diverse and widely scattered set of initiatives,
With relatively little expenditure of funds, HHS, other Federal agencies, State and local agencies,
and others can help connect those involved with these initiatives, They can do this in various
ways, but especially by serving as a regular convener of governmental officials, private service
agency officials, foundation representatives, academics , and others associated with SI reforms.
In so doing, they could be instrumental in disseminating valuable information , stimulating ideas,
and fostering effective SI strategies for the 1990'€
          CHAPTER III: DEFINITIONS
            SERVICES INTEGRATION
HEW Secretary Elliot Richardson , in a June 1 , 1971 , Departmental memorandum entitled
 Services Integration. . . Next Steps:

            Services Integration refers primarily to ways of organizing the delivery of services to
            people at the local level. Services Integration is not a new program to be superimposed
            over existing programs; rather, it is a process aimed at developing an integrated
            framework within which ongoing programs can be rationalized and enriched to do a
            better job of making services available within existing commitments and resources, Its
            objectives must include such things as: (a) the coordinated delivery of services for the
            greatest benefit to people; (b) a holistic approach to the individual and the family unit; (c)
            the provision.of a comprehensive range of services locally; and (d) the rational allocation
            of resources at the local level so as to be responsive to local needs.

HEW, Social and Rehabilitation Services, in              Integration of Human Services in HEW: An
Evaluation of Services Integration Projects,             1972:

            The linking together by various means of the services of two or more service providers to
            allow treatment of an individual's or family s needs in a more coordinated manner (p. 5).

William A. Lucas, Karen Heald, and Mary Vogel of the Rand Corporation , in                The    1975   Census
of Local Services Integration Projects:             A Working No te Preparedfor the Department of Health
Education a~d Welfare                  December 1975:

            An innovative organizational effort to coordinate or consolidate human services activities
            at the local level in traditional agencies as a means of enhancing the effectiveness,
            efficiency, and/or continuity of comprehensive service delivery (p. 2).

United States General Accounting Office, in               Welfare Simplification: Projects to   Coordinate
Services for Low-Income Families,                August 1986:


            The coordination of benefits and/or services to (1) allow access to and use of benefits by
            all clients, (2) improve effectiveness of service delivery, and (3) achieve efficient use of
            human services resources (p. 1).
      CHAPTER IV: CHRONOLOGY
        MAJOR FEDERAL SERVICES
        INTEGRATION INITIATIVES
                                             1971- 1976

SERVICES INTEGRATION TARGETS OF OPPORTUNITY (SITO) RESEARCH
PROJECTS

Initiated in June 1972, the SITO projects were supported by funds from the component HEW
agencies, particularly the Social and Rehabilitative Services. Over the next few years, ' 45 SITO
projects were funded. Ten of them were technical studies carried out by consulting fmns or
public interest groups. The others, most of which were funded for three years, were
comprehensive service delivery efforts carried out by State or local governments or private
agencies and intended to provide replicable information on how to integrate the delivery of a
wide range of human services. Among the many SI mechanisms supported were client tracking
systems, collocated services, case management, and information and referral systems,

DEPARTMENT OF HUMAN RESOURCES (DHR) PROPOSAL

The DHR legislative proposal was one of a series introduced in 1971 by the Nixon
administration for the purpose of consolidating the executive branch of the Federal Government.
Building on principles of accountability and authority ~et fonh by the Ash Council , the proposal
called for a substantial strengthening of the Secretary s role as chief executive officer of the
Department. ' It also called for a strengthening of the role of the Regional Directors and other
components of the Department. In this regard, it was widely viewed as a reform that would
facilitate the integration of services. The proposal did receive some congressional consideration
but was not passed.

ALLIED SERVICES ACT PROPOSAL

The Allied Services Act of 1972 was at the core of HEW Secretary Richardson s and the Nixon
administration s SI agenda, In fact, in 1972 the President referred to it as an important initiative
that would help individuals "move more rapidly from public dependency toward the dignity of
being self-sufficient, " As proposed, the legislation would have allowed HEW to make planning
and implementation grants available to State and local general purpose governments, to waive
certain Federal requirements that impede SI , and as part of an Allied Services plan to transfer
funds from one categorical program to another. The proposal was reintroduced to Congress in
1974 and 1975, but in the face of widespread opposition by the categorical program interests, it
was never enacted.
THE INTEGRATED PROJECTS FUNDING SYSTEM

Introduced in the HEW Office of the Comptroller in 1971, this system came to be known as the
 Switching Station, " Its mission was to facilitate the funding of integrative social services
projects calling for funding from multiple HEW funding sources. Applicants would submit a
consolidated application to the Station , which would then "pull various switches " to expedite the
review process, It would not have the authority to fund projects on its own; it would serve as an
expediter. The Station did operate in the mid- 1970' s and did help some applicants receive
Federal funding for broadly based proposals, but, without supporting legislation, it did not have
much impact on categorical program restrictions. It was disbanded by 1976.

SI TECHNICAL ASSISTANCE EFFORTS

Beginning in 1972 , the Office of the Secretary and the 10 Offices of the Regional Director were
engaged in technical assistance efforts intended to f~cilitate the integration of services at State
and local levels. These effons were directed largely, but not exclusively, to general purpose
governments. In some places, they involved suppon for the establishment of State umbrell~
human services agencies, as was the case in Georgia. In others, they involved help in
establishing innovative comprehensive projects, such as Connecticut s Project Triage, a
pioneering effort to integrate the delivery of health and social services for home- bound elderly.
In still others, they involved suppon for the establishment of broadly based coalitions, such as the
New England Human Services Coalition.

THE PARTNERSHIP GRANTS PROGRAM

This program was initiated in Fiscal Year 1974 as a major part of what had come to be called
HEW' s " capacity- building " strategy. This strategy sought to help State and local general
purpose governments to improve their capacity to plan and manage human services. Over a
period of about three years, the Partnership program provided about $9 million in funding to 84
different projects. Funded for up to three years, these projects devoted more attention to
administrative levels than did the SITO projects. However, they also supported various service
level linkages, such as information and referral systems.

COMPREHENSIVE HUMAN SERVICES PLANNING AND DELIVERY SYSTEM
(CHSPDS) PROJECTS €
The CHSPDS projects followed the SITO projects. More than the latter, however, they devoted
considerable attention to planning and management issues and were intended to be a systematic
set of experiments. , The five grantees (in Brockton , Mass. ; Jefferson County, Ky. ; Ponsmouth
Va. ; Suffolk County, N. Y.; and Taunton; Mass. ) were required to participate in a common
evaluation and to test the implementation of ten management elements, such as cost accounting
and case management systems. The projects were funded for three years, but because of funding
constraints there were major reductions .in the final year and the common evaluation was not
carried out.
PROJECT SHARE

One of the most enduring initiatives of this era was Project SHARE, a national clearinghouse€
initiated by HEW in 1974- 75 to help improve the management of human services. In its early€
years, Project SHARE concentrated on compiling SI- related literature and on facilitating€
widespread access to it. It prepared and distributed abstracts of that literature and , upon request€
conducted searches of it. In addition , it commissioned, published , and distributed monographs€
addressing key SI issues. In subsequent years, the clearinghouse has continued to receive HHS€
support, but at a lower level and with more of a categorical focus.€

TITLE XX OF THE SOCIAL SECURITY ACT€

Enacted in 1975, Title XX is a social services block grant. It replaced the social service funding€
provided to the States under Titles IV- A and VI of the Social Security Act. Under Title XX€
Congress niaintained the $25 billion funding ceiling it had previously established under Title€
IV- A. However, it gave States much more flexibility in determining how social services dollars€
would be spent. With Title XX funds, they could engage in comprehensive social service€
planning and develop a service program that responds, in an integrated fashion, to the particular€
needs of its citizens. The program had to be directed to six broadly stated program goals€
established by the legislation.€

                                             1977- 1990€

ACCESS SERVICES PROGRAM PROPOSAL€

This was a legislative proposal developed by the Office- of Human Development Services in
October 1977. It called for amending Title XX to make up to $50 million available annually to
offer incentives to the States " to develop comprehensive multiprogram access projects for the
purpose of improving accessibility to human services by individuals who need them. " Access
services were defined to include information and referral, transportation , outreach, and other
such services that would help individuals use available services. The proposal was never passed
by the Congress.

NATIONAL NETWORK FOR COORDINATING HUMAN SERVICES€

The National Network was funded by the Office of Human Development Services (OHDS)€
through a cooperative agreement with a private firm. Through the Network , OHDS sought to€
develop and maintain linkages between individuals and organizations interested "in coordinating€
services that cross categorical boundaries, gov~rnmental jurisdictions, and the public and private€
sectors. " In 1980 and 1981, the Network facilitated such linkages and disseminated information€
by holding two national conferences and by developing and distributing written and audiovisual€
materials,€
BLOCK GRANT PROGRAMS

In the Omnibus Budget Reconciliation Act of 1981 , Congress consolidated about 30 separate
categorical programs into seven block grants: Preventive Health Services; Alcohol , Drug Abuse
and Mental Health; Primary Care; Maternal and Child Health; Community Services; Social
Services; and Low Income Energy Assistance. The combined programs were funded at 75 to 90
percent of the 1981 func:!ing levels, but under them , the States had fewer reporting
responsibilities to the Federal Government and greater discretion in how they could spend the
funds. With less " red tape " and more flexibility, the opportunities for integrating services were
enhanced.

SERVICES INTEGRATION PILOT PROJECTS:

In the Deficit Reduction Act of 1984 , Congress authorized Federal funding for SI pilot projects
that would help individuals and familids achieve social and economic self-sufficiency, In May
1985, OHDS awarded demonstration grants to the States of Arizona, Maine, Oklahoma, South
Carolina, and Florida. Each State was responsible for testing a common set of SI mechanisms,
such as common resource directories, unified budgeting and accounting systems, uniform
application and eligibility procedures, and standardized procedures for purchase of services,
The States received grants in subsequent years as well and with them were able to establish a
number of important linkages. However, a common evaluation that was planned did not
materialize because of financial problems experienced by the contractor that was selected to
perform the evaluation.

INTERAGENCY LOW- INCOME OPPORTUNITY ADVISORY BOARD

The Board was established by executive order on July 20, 1987, to promote the coordination of
public assistance programs and policies. Located in the White House, the Board served in 1987
and 1988 as a focal point for welfare reform demonstration proposals, It worked with States in
facilitating such proposals and with Federal departments in reviewing and approving them.
Among 26 proposals submitted to the Board by the States, 16 were approved. The
demonstrations addressed coor~nation in various ways, but stressed particular programmatic
elements, such as transition bene~its for welfare recipients who obtained employment.
        CHAPTER V: FINDINGS FROM

      SELECTED NATIONAL STUDIES ON

          SERVICES INTEGRATION

                                                  1972

     s. Department of Health, Education , and Welfare, Social and Rehabilitation Services,
Integration of Human Services in HEW: An Evaluation of Services Integration Projects
Volume    I, 1972.

Background:    This study was commissioned to understand more clearly the nature and progress
of ongoing efforts in services integration and to identify possible Federal actions most conducive
to support of the efforts. Thiny case studies were developed based on document reviews and
interviews with the major participants and observers. of the projects ' history. These case studies
provided the basic information for conducting the study analysis.

Major Findings:

              Services integration is not extensive. Even in the projects identified as successful
              none had fully developed a majority of the service linkages being reviewed,

              Services integration is an evolutionary process. It takes time to organize and
              implement, time to attain legitimacy in the eyes of service providers, and time for
              participating agencies to develop working relationships.

              Services integration is facilitated and inhibited by numerous factors. But no single
              factor is instrumental in benefiting or impeding a majority of the projects.

              Services integration results in improved accessibility, continuity, and efficiency of
              client services.

              There is no one best services integration method for providing client services.

               Development of different linkages requires differing resources and incentives, and
              , varying periods of time.

              Clients can be an important integrative force.

  S. Department of Health, Education, and Welfare, Report on the Task Force on
Administrative and Organizational Constraints to Services Integration, June 1972.
Background:    The purpose of this report was to examine the administrative and organizational
practices that impede the integration of services. It was based upon four site team reports and
drew upon a number of papers.

Major Findings:€

                  Major barriers to services integration arise more from the attitudes and behavior of
                  the people involved than from organizational arrangements, admini~trative practices
                  and regulations.

                  DHEW is organized along professional lines for historic, legislative, and educational
                  reasons, This has resulted in few human services generalists who could cut across
                  program and professional lines to deal with a broad range of human needs,

                  The sheer size of the DHEW system and its State counterparts results in unfortunate
                  competition among groups at the local level who should in fact be cooperating.

                  Within the DHEW maze it is difficult to find that responsible party who can make a
                  decision or hold others accountable.

                  DHEW erects barriers to services integration by its categorical funding nature, the
                  variation in program decentralization , the lack of infonnation , the nature of technical
                  assistance, and the lack of regional authority. All of these factors work against a
                  more responsive and efficient Federal system.

                                                       1974

The Council of State Governments,             Human Services Integration: State Functions in
Implementation,              1974.

Background:     This study sought to gather information on consolidated human resources
agencies, the perceptions of agency officials on the nature of services integration , and their
priorities in achieving it. The information was based on a 50 State mail survey and on-site visits
to 20 States.

Major Findings:€

                  Human services integration is not a top priority item in many States.

                  Services integration is a panicularly difficult concept to implement in large urban
                  States because of the magnitude of social problems and the multitude of public and
                  private agencies involved.
                  Many States have established comprehensive human resource agencies, Such a move
                  basically leads to efforts to coordinate programs and administrative services, but not
                  necessarily to services integration,

                  It is too soon to determine whether a comprehensive human resource agency is a
                  vehicle that can successfully accomplish integration of human services.

                  States ' political and bureaucratic issues have been important barriers in attempts to
                  integrate services. Other barriers have resulted from Federal grants and legislation
                  and from regulations administering the grants.

                  Title IV- A of the Social Security Act, authorizing Federal funds for State and local
                  social services programs, can be instrumental in promoting services integration,

                                                      1975,

Douglas Henton,                                     An Evaluation Prepared for the
                         The Feasibility of Services Integration:
HEW Interagency Services Integration R&D Task Force March 1975.

Background:    This study analyzed 34 demonstration projects and 6 case studies in an attempt to
provide information useful for future policymaking. Its purpose was to determine those
conditions in which services integration appears feasible and the factors influencing the adoption
of service linkages in the demonstration projects.

Major Findings:

                  Services integration does not appear to be an organizational strategy that can be
                  applied with equal success in every locality. Services integration appears to be
                  feasible only in particular environments employing specific strategies.

                  Services integration should not be promoted by the Federal Government as the most
                  appropriate strategy for every community. Linkages have been adopted more readily
                  in " stable rural environments " than in " turbulent urban environments.

                  In some communities the costs of services integration outweigh any benefits
                  produced,

                  Services integration must be approached with realistic expectations. Attempts
                  large-scale State- level or comprehensive human services planning must be
                  approached with extreme caution.

                  Human services organizational networks must be adapted to local environments and
                  no one structure can be implemented in every environment.
William A. Lucas, Karen Heald, and Mary Vogel, Rand Corporation , prepared for the U.
 Department of Health, Education, and Welfare, 
     Census of Local Services
                                                               The   1975


Integration December 1975.

Background:   The purpose of this research effort was to examine issues related to how one€
would go about integrating services once it was decided that services integration was a desirable€
goal. A research census of 70 SITO (DHEW' s Services Integration Targets of Opportunity€
program) and non- SITO sites identified the scope and approaches used for services integration.€


Major Findings:€

                     In the absence of decisive DHEW initiatives, services integration will continue to be a€
                     marginal and isolated phenomenon.€

                     If DHEW wishes to see a serious reorganization or changes in traditional philosophy,€
                     it must be prepared to provide extensive funds and change DREW regulations to€
                     encourage such activities.€

                  IfDHEW continues with its service integration effons, it must recognize that (1)€
                  research and development funds are vital, (2) categorical programs may pick up many€
                  of the better projects, (3) extensive planning models are of varying use,- but not €
                  sufficient value to be required, and (4) projects with continuing interactions among€
                     service staffs may progress better than other projects.

                                                         1976€

               Rolesfor General Purpose Government in
Sidney L. Gardner,                                                             Services Integration,   Project€
SHARE, Human Services Monograph Series, No. 2, August 1976.€

Background:   The focus of this study was to look at HEW' s effons to expand the capacity of€
State and local general purpose executives to plan and manage categorical human services€
programs and HEW' s effons to integrate such programs through a variety of demonstration€
projects.€

Major Findings:€

                  Projects seeking institutional change cannot survive if constantly concerned with€
                  resource mobilization rather than program operation. Federal funding cycles and
                  limited State and local budgets contribute significantly to this effect.€

                  Effective project leadership is a sine qua non for capacity- building.€

                  Consensus building is imponant in ensuring that services integration is an ongoing€
                  capacity,€
                Federal and State capacity- building agendas often diverge under different pressures
                and incentive systems,


 Gerald T. Horton , Victoria N. E. Carr, and George J. Corcoran Illustrating Services
 Integrationfrom Categorical        Project SHARE , Human Services Monograph Series,
                                             Bases,

 No. 3, 1976.

 Background:    This repon focuses on one method of services integration , starting with a
 categorical funding and program base which was expanded to integrate complementary services
 and resources into a comprehensive service package. Four projects were examined in detail.

Major Findings:

                Funding is a major determinant in services integration. The amount and type
                funding shapes the initial implementation and integration of services.

                A strong project leader capable of mobilizing resources, merging conflicting opinions
                or groups, planning effectively, and relating to a broad section of the community and
                providers facilitates services integration.

                Community receptivity to the need for services and the desire to provide effective
                delivery are necessary.

                An administrative structure must be in place to allow for planning and implementing
                of services integration.



                Staffs ' desire to increase service delivery effectiveness affects services integration.

                Long-term planning must be implemented and include project goals and purpose,
                methods to integrate service delivery, and current and future funding sources,

                                                                     1977

DeWitt John , prepared for the Center for Social Research and Development, Denver
Research Institute, University of Denver, Denver       Managing the Human Service
                                                                            , Colo.,

  System       : What   Have We Learnedfrom Services Integration?,                     Project SHARE, Human
Services Monograph Series, No. , August 1977.

Background:    This study reviews and assesses the final reports and evaluation of 20 SITO
(DHEW' s Services Integration Targets of Opportunity program) projects, paying particular
attention to the impact of interagency linkages on efficiency, effectiveness, and accountability.
 Major Findings:

              The fiscal squeeze faced by State and local human service agencies, and Federal
              State, and institutional barriers led to few successful fiscal linkages being tried or
              implemented successfully.

              Collocating provider services to enhance personnel linkages had mixed results. Some
              projects did experience an increase in savings, service accessibility, communication
              and staff sharing.

              Agency turf issues can adversely affect efforts to establish planning and programming
              linkages.

              Multiagency client information systems resulted in less efficient administrative
              linkages and did not provide information-necessary for determining eligibility.

              Core service linkages can substantially increase client service accessibility, may
              increase service system responsiveness to clients, and may foster strong informal
              relationships between agencies,

              There is little evidence to suggest that efforts to increase case coordination linkages
              are successful.

                                                   1978

Rj Associates     and SRI International for the U. S. Department of Health , Education and
Welfare, Office of the Assistant Secretary for Planning and Evaluation Assessing the
DREW Partnership Grants Program: A Study of State and Local Government Capacity
Building, Final Report, February 1978.

Background:    This report is an assessment of the Partnership Grants Program initiated by the
Department of Health, Education and Welfare in 1974. Its purpose was to learn more about the
effectiveness of differing modes Of human services planning, management, and delivery
techniques being tested in 20 demonstration projects. €


Major Findings:

              The political environment of a particular jurisdictional setting was the most important
              factor in establishing parameters as to what could be accomplished and the degree of
              difficulty a project was likely to experience in implementing a strategy to achieve its
              objectives,
              The active support of chief officials is essential to the successful implementation of a
              major new organizational or process reform within the human services system;
              without such support reforms are unlikely to be successful.

              Designation of the organizational location for human services must rest with the chief
              elected officials and/or their immediate staff.

              The optimum strategy to achieve human services reform involves a balance between
              the political process of generating and maintaining consensus among decision makers
              and the technical activity of developing research products to facilitate the political
              process.

                                                  1980

Pat G. McGinnis and Fredrick M. Bohen, U. S. Department of Health and Human
Services, Office of the Secretary, Eligibility Simplification Project, Executive Summary,
September 9, 1980.€

Background:   The study looked at approaches to eligibility simplification for the seven core
assistance programs that comprise 10 percent of the Federal budget. Analyzed were Federal
program requirements affecting eligibility and procedures.

Major Findings:

              Existing programs fail to meet the needs of Citizens in an efficient and responsive
              manner.

              There is no agreement on income and asset definitions by the different programs,

              The programs have different approaches to gathering client financial data, verifying
              financial data, and determining eligibility.

              Nonfinancial conditions of eligibility differ among the programs.

                                                  1983

    S. Department of Health and Human Services, Omce of Human Development Services,
Office of Program Development,     A Review of the Conceptual Foundations and Current
Status of Services Integration, January 13, 1983.

Background:   This paper traces the development of human services integration from the early
1970' s to 1983 and highlights key observations that have emerged from the work. Offered are
suggestions to facilitate effective services planning and delivery along with examples from
present and planned projects and demonstrations that have explored or will address selected€
approaches to achieve services integration,€

Major Findings:€

                  Although integrated service delivery does not necessarily reduce the cost of services,€
                  it does result in more complete assessment of client needs and the development of€
                  more comprehensive service programs addressing those needs.€

                  The success of services integration efforfs depends heavily on the commitment of€
                  managers and key staff of participating agencies,€

                  A taxonomy of services and a comprehensive resources directory are vital to€
                  integrated program and case planning.€

                  Collocation alone will not ensure interprogram coordination.€

                 Lack of timely, comprehensive, and relevant data often serves as a barrier to service€
                 integration.€

                                                      1987€

United States General Accounting Office,            Welfare Simplific(l.tion: States ' Views on€
Coordinating Services for Low-Income Families,            GAO/HRD- 87- 110FS, July 1987.


Background:   This report is GAG' s fourth in response to congressional committees ' requests for€
information on services integration. It summarizes responses by 49 States to a GAO€
questionnaire. The questionnaire focused on families eligible to receive benefits under six€
low- income assistance programs and addresses collocation of services, coapplication for€
services, coeligibility and determination for services, and the use of a single case manager for€
servIces.€

Major Findings:€

                  For the four types of integration examined , 23 States have integrated their service€
                  delivery units for the three major benefit programs-Aid to Families with Dependent€
                  Children , Medicaid for the Categorically Needy, and Food Stamps,€

                  Thirty States have started at least one services integration project since October 1€
                  1983.€

                  Among the most frequent obstacles to services integration were the multiple€
                  regulations and different financial eligibility requirements used by various programs.€
,----"'---'" -




          Few States indicated that the Department of Agriculture or the Department of Health
          and Human Services had encouraged services integration to any great extent,

          The three reasons most often cited for eligible families not receiving benefits were (1)
          transportation difficulties, (2) lack of outreach services, and (3) insufficient funds for
          cenain programs, especially Section 8 housing.
""'--"" -,.. ,                                      '. ..., ---_..'--_..'€




                                                           APPENDIX A€
                 ENDNOTES€

                     We reviewed many HEW /HHS funded reports addressing the results of SI efforts; all the
                      relevant reports of Project SHARE , a national clearinghouse funded by HEW in the
                      mid- 1970' s to improve the management of human services; many articles in journals
                    . such as th~        Public Administration Review the New England Journal of Human Services
                      and Social Services Review;        and various internal documents associated with departmental
                      task forces and reviews over the years.

                     See, for instance, Sidney L. Gardner Roles for General Purpose Governments in€
                     Services Integration, Project SHARE , Human Services Monograph Series, No. , August€
                     1976, p. 5.€

                      Introduction    Human Services Integration: Special Publication American Society
                                             " in

                     for Public Administration , March 1974 , pp. 2-

                     See Donald A. Schon             Beyond the Stable State   (New York: W. W. Nonon & Co., 1973),
                     pp. 63- 64.

                     See Mark R. Yessian and Rosalie H. Lang, " The Quest for Human Services Integration as€
                     Reflected in HEW Journal of Health and Hum,an Resources Administration    3, no, 4€
                     (May 1981): pp. 517- 539; and Walter Trattner From Poor Law to Welfare State: A€
                     History of Social Welfare in America (New York: the Free Press, 1974).€

                     See chapter IV for a chronology of major SI initiatives undenaken by HEW/HHS in the
                     1970' s and 1980'

                     In this context, the Nixon adrmnistration introduced the Family Assistance Plan€
                     legislative proposal. Had it passed Congress, it would have made income maintenance€
                     for low- income families a Federal responsibility. See Douglas Henton The Feasibility of€
                     Services Integration: An Evaluation Prepared for the HEW Interagency Services€
                     Integration R     D Task Force, March 1975, p. 5.€

                     See Yes sian and Lang, pp. 519- 527. Much of Richardson s SI agenda was based on a€
                     February 1971 report prepared under the direction of Deputy Assistant SecretarySidney€
                     L. Gardner and entitled Services Integration in HEW: An Initial Report"€

                     General purpose governments are regarded as the sphere of elected officials having broad€
                     responsibility for governance. Although this encompasses the legislative as well as the€
                     executive branch , the HEW capacity- building agenda dealt primarily with the latter-€
                     particular with the immediate offices of the chief executive or with the umbrella human€
                     services agencies reporting to the elected chief executive.€
                            ,"
             .. "'-'-"-' ~..,..                  ,"                 .. --------, ,-_..,                   , p.€




10,	   The other programs specified are public health, mental health , mental retardation , adult
       corrections, youth institutions, vocational rehabilitation , and employment services, See
       Keon S. Chi What Has Happened to the Comprehensive Human Services Agency?"
       New England Journal of Human Services       7, no. 3 (1987): 24- 30,

11.	   Many reports have been written on the Florida reorganization and its implementation,
       See Laurence E. Lynn , Jr. Organizing Human Services in Florida, Evaluation    3, nos,
          2 (1976): 58- 97; National Academy of Public Administration Reorganization in
       Florida: How Is Services Integration ,Working?, Washington , D. , September 1977;
       and National Academy of Public Administration,  After a Decade: A Progress Report on
       the Organization and Management of the Florida State Department of Health and
       Rehabilitative Services,                 April 1986.


12.    See Yessian and Lang, pp. 534- 535.

13.	   Robert A. Weyer, " Block Grants at the Local Level: New Jersey and the New
       Federalism New England Journal of Human Services,     no. 4 (1985): 17.


14.    In 1987, as in 1976, there were 26 State umbrella human services agencies. See Chi
       29.

15,	   The lesser visibility in the 1980' s is quite apparent in the decrease in the literature on the
       topic. In a SI bibliography prepared by the General Accounting Office in 1986, there
       were 120 citations involving publications issueq between 1972 and 1979 and 40 for those
       issued between 1980 and 1986. See GAD,                 Welfare Simplification: Projects to
       Coordinate Services to Low-Income Families,    GAOIHRD- 86- 124FS, August 1986, pp.
       50- 67. A subsequent GAO repon, based on a survey of the States, indicated that 30
       States started at least one SI demonstration project since October 1, 1983. See GAO,
       Welfare Simplification: States ' Views on Coordinating Services for Low-Income
       Families,  GAOIHRD- 87- 11OFS, July 1987, pp. 21- 22.

16,	   This is a development that Alfred 1. Kahn and Sheila B. Kammerman noted as far back as
       the late 1970' s, when they commented: " a number of categorical entities in HEW
       responding to legislative mandates , constituency pressures, and professional initiatives
       have moved towards creating integrative service delivery systems of a comprehensive
       son for these special categories.   Prime illustrations in some States are rehabilitation
       services, services for the aged , community mental health programs, child and family
       welfare systems. " See " The Course of Personal Social Services, Public Welfare
       (Summer 1978.

17.	   These positive impacts are documented in many national and local reports. See
       especially, DeWitt John Managing the Human Service "System : What Have We
       Learnedfrom Service Integration?,                         Project SHARE, Human Services Monograph Series
       No, 4 , August 1977; Gerald T. Horton , Victoria N. E, Carr, and George J. Corcoran
       Illustrating Services Integration from Categorical Bases,                   Project SHARE , Human
                      ,"                                 .. ",--"" ".,."   "....                                   .._-,- -.. ,_....,€




       Services Monograph Series, No, 3, 1976; and Michael E. Fishman and James V. Dolson
        The Evolution of Human Services Integration: A Federal Perspective, " an unpublished
       paper prepared in 1987 for a conference sponsored by the Human Services section of the€
       American Society for Public Administration and entitled "Whatever Happened to the€
       Umbrella Human Services Agency?"€

18,    The Community Life Association: From                                1972- 1975, Final Evaluation Report, January
       1976, p. 63.

19,    See    Human Services Integration: Special Publication.€

20,   A specific illustration of this kind is the highly fragmented system for delivering prenatal€
      services to low- income pregnant women in Boston (and other cities). See Office €
      Inspector General,   Evaluation of the Boston Healthy Baby Program,    OAI- 0l- 88- 01420,€
      July 1989.€


21.   See GAO,          Welfare Simplification: States '                    Views on Coordinating Services   for
      Low-Income Families,                   pp. 25- 38.

22,   In particularly candid comments, Sidney Gardner, director of the Community Life
      Association s SI project, noted the following at a May 6- 7, 1976, meeting of the New
      England Human Services Coalition: "When we got down to the final decision about
      pick-up, the merits of our program were almost fully irrelevant. To the extent they even
      made conscious decisions, the city and state made their decisions based upon no new
      programs and no new funding, no new outsider' ,units arid no new non-profit providers.

23.   Department of Health, Education , and Welfare,                               Report of the Task Force on€
      Administrative and Organizational Constraints to Services Integration,                              June 1972 , p, 17,

24.   See John Managing the Human Services ((System,                                   p. 68.


25,   See Schon Beyond the Stable State.€

26,          J. Laski The Limitations of the Expert, Harper s, December 1930, p. 106.

27.   Sidney L. Gardner Services Integration in HEW: An Initial Report,                                Department of€
      Health , Education , and Welfare , February 26, 1971 , p. 5.€

28,   The relevance of these integration roles is addressed in many reports. See especially,€
      Horton et aI.,         Illustrating Services Integration from Categorical Bases;                  Gardner Roles€
      for General Purpose Governments in Services Integration;                             R. J. Associates and SRI
       International Assessing the HEW Partnership Grants Program: A Study of State and
      Local Government Capacity Building, €                           Arlington , Va., and Menlo Park , Calf" 1978; and
       Robert Agranoff and Alex Pattakos, €                       Dimensions of Services Integration: Service€
      Delivery, Program Linkages, Policy Management, Organizational Structure, €                             Project€
       SHARE , Human Services Monograph Series , No. 13, April 1979.€
                                                                                       .---.'   ,".,..




                                                                                 ..- "0-





29.   This may be a reflection of what Peter Drucker describes as a new pluralism in society
      and a decreasing capacity of government to function as an integrator of interests. See
      Peter F. Drucker The New Realities  (New York: Harper and Row, 1989),

30,   For elaboration on some of the critical distinctions among general administration
      program administration, and service delivery spheres of operation, see Mark R. Yessian
        Delivering Services in a Rapidly Changing Public Sector American Behavioral
      Scientist   , no. 6, 1978, pp. 829- 857. See also Mark R. Yessian, " The Generalist
      Perspective in the HEW Bureaucracy: An Account fmm the Field, Public
      Administration Review,                    March/April 1980.



31.   See, for example, Council of State Governments,                     Human Services Integration: State
      Functions In Implementation,                      Lexington, Ky., 1974 , p. 4.

32,   See ibid, and the Department of Health , Education, and Welfare, Office of the Assistant
      Secretary for Planning and Evaluation, " Services Integration and the Department of
      Health , Education , and Welfare, " January 1977.

33,   For instance, the supponers of the Connecticut Council on Human Services, an umbrella
      State human services agency found that in the face of opposition by programmatic
      interests, there was little political support for integrative approaches that could not
      deliver short-term solutions to complex problems. See Rosalie H. Lang, "The Council on
      Human Services: A Case Study in the Failure' ofHuman Service Coordination, " paper
      deliver~d at the May 6-7, 1976, meeting of the New En gland Human Services Coalition,

34,   See, for instance, Fishman and Dolson, "The Evolution of Human Services Integration:
      A Federal Perspective, " p. 7.

35,   See, for example, John Managing the Human Services tlSystem, p. 68; HEW, " Services
      Integration and the Department of Health , Education , and Welfare, " 1977; and
      Department of Health and Human Services, Office of Human Development Services, "
      Review of the Conceptual Foundations and Current Status of Services Integration
      January 13, 1983,€

36,   With respect to the SITO projects, John                    (Managing the Human Services ((System, p, 69)
      indicates that the evidence from them is " fragmentary and difficult to assess, " largely
      because of inconsistent definitions and limited quantitative measurements of impact.
      must also be noted that other conceptualizations and evaluations of the projects suffered
      from an overly rigid framework in which SI was reviewed essentially as an
       organizational design and systems engineering problem. " See Yes sian and Lang, p, 522,

      The CHSPDS and SIPP effons sought to produce more definitive results than the SITO
      projects by establishing common frameworks and definitions at the start. Yet,€
      evaluations planned for the two effons did not occur. In the case of the CHSPDS
                                                                                                , "'.   ---"" ..,.




      projects, this was because the funding did not become available; in the case of the SIPP
      projects, it was because the selected contractor went bankrupt.

37,   In this regard, the following excerpt from the final evaluation report of the Community
      Life Association SITO project provides food for thought:

            It can be argued that any system has only limited toleration of innovation; yet
            CLA sought innovation across the entire human services system, from top to
            bottom. But it is a fair-though unanswered--question to ask whether more
            modest, clearly focused goals of reform at fewer points in the human services
            system would have had some greater results. (p. 60)

38,   Here, again ,a valuable lesson can be learned from prior efforts. Years ago, the project
      report prepared on the Jonesboro, Arkansas, SITO project offered the following
      conclusion based on that project s experiences:

            If Congress or the Arkansas General Assembly provides funds for the Blind,
             they expect funds to be spent for that group and not an abstract administrative
            concept such as core administration or generic case management. It is our
            opinion that so long as lobby groups influence legislation , and funds are noted
           , categorically, services will be administered and delivered categorically.

      See John Managing the Human Service "System,        pp. 15- 16.


39.   See Drucker     The New Realities,   p: 66.

40,   HEW Secretary Elliot Richardson emphasized this point in the June 1, 1971
      memorandum that outlined his SI agenda. In that memorandum , he indicated that in
      itself coordination among service providers was " not likely to be fully effective. " He
      added that " some process should be set in motion that will lead toward a degree of
      centralized management, with a proportional curtailment of sovereignty by each of the
      participating agencies.

41.
      conference, May 6-           .1976.
      Sidney L. Gardner, remarks before the New England Human Services Coalition


42.   Of panicular note is that the White House and National Governors ' Association have
      established a panel to gauge the nation s progress toward six mutually agreed upon
      education goals, One of the immediate tasks of the panel is to select precise measures to
      assess progress in reaching these goals.

43,   See, for example, R. Miller et ai Developing Client Outcome Monitoring Systems: A
      Guidefor State and Local Social Service Agencies         (Washington , D. c.: The Urban
      Institute, (u, ); Reginald Caner The Accountable Agency,        SAGE Human Services
      Guides, vol. 34 Sage Publications, (Beverly Hills, Calf. ; 1983); and Harry B. Hatty,
       Program Evaluation and Client Outcome Monitoring for State and Local Human Service€
      Agencies, New England Journal of Human Services Agencies,   Winter i985, pp, 34- 41.€

44.   William A. Lucas, Karen Heald, and Mary Vogel The 1975 Census of Local Services
      Integration: A Working Note Prepared for the Department of Health , Education, and
      Welfare, Rand Corporation , WN- 9289- HEW, December 1975, p. 45.
